No. 21-395
Kevin Owen McCarthy, et al. v. Nancy Pelosi, in her Official Capacity as Speaker of
the House, et al.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici Curiae
of Center for Constitutional Jurisprudence and Cato Institute in Support of Petitioner
contains 2,593 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 13, 2021.

ANTHONY T. CASO

